Case: 19-10197

Document: 00515475298

Page: 1

Date Filed: 07/01/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-10197

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.

ERIC GERARD MCGINNIS,
Defendant - Appellant

Appeal from the United States District Court
for the Northern District of Texas

ON PETITION FOR REHEARING EN BANC
(Opinion April 21, 2020, 5 Cir.

F.3d

)

Before HIGGINBOTHAM, JONES, and DUNCAN, Circuit Judges.
PER CURIAM:
(x)

Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. No member of
the panel nor judge in regular active service of the court having
requested that the court be polled on Rehearing En Banc (FED. R. APP.
P. and 5TH ClR. R. 35), the Petition for Rehearing En Banc is DENIED.

0

Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. The court
having been polled at the request of one of the members of the court and
a majority of the judges who are in regular active service and not

Case: 19-10197

Document: 00515475298

Page: 2

Date Filed: 07/01/2020

No. 19-10197
disqualified not having voted in favor (FED. R. APP. P. and 5TH ClR. R.
35), the Petition for Rehearing En Banc is DENIED.

ENTERED FOR THE COURT:

STUART KYLE DUNCAN
UNITED STATES CIRCUIT JUDGE

2

